                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



September 29, 2014

James R. Dalrymple, LP 3K-C

REQUEST FOR FINAL ACTION – EVALUATION 2014-15216 – FOLLOW-UP REVIEW
OF TVA’S COAL PLANT FIRE PROTECTION SYSTEMS



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or taken,
have been included in the report. Please notify us when final action is complete. In
accordance with the Inspector General Act of 1978, as amended, the Office of the
Inspector General is required to report to Congress semiannually regarding evaluations
that remain unresolved after 6 months from the date of report issuance.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact Janell B. Cunio,
Senior Auditor, at (423) 785-4811 or Gregory R. Stinson, Director, Evaluations, at
(865) 633-7367. We appreciate the courtesy and cooperation received from your staff
during the review.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

JC:FAJ
Attachment
cc (Attachment):
     William D. Johnson, WT 7B-K
     Dwain K. Lanier, MR 3K-C
     Justin C. Maierhofer, WT 7B-K
     Richard W. Moore, ET 4C-K
      R. Windle Morgan, WT 4D-K
      Charles G. Pardee, WT 7B-K
      TVA Board of Directors
      OIG File No. 2014-15216

      WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
      distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
              is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
                               TVA RESTRICTED INFORMATION


Office of the Inspector General                         Evaluation Report
                                                                  To the Senior Vice President,
                                                                  Power Operations




FOLLOW-UP REVIEW OF
TVA’S COAL PLANT FIRE
PROTECTION SYSTEMS




Audit Team                                                                                            Evaluation 2014-15216
Meghan H. Petty                                                                                         September 29, 2014
Janell B. Cunio

             WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
             distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                     is not to be further distributed without prior approval of the Inspector General or his designee.


                             TVA RESTRICTED INFORMATION
Office of the Inspector General                                   Evaluation Report




ABBREVIATIONS
ERT                        Emergency Response Training
FPG                        Fossil Power Group
FPSA                       Fire Protection Self-Assessment
FY                         Fiscal Year
NFPA                       National Fire Protection Association
OIC                        Operations Information Center
OIG                        Office of the Inspector General
O/E                        Operating Experience
PER                        Problem Evaluation Report
SPP                        Standard Programs and Processes
TVA                        Tennessee Valley Authority




Evaluation 2014-15216

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                           Evaluation Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS ........................................................................................ 3
    TVA’S MAINTENANCE OF FIRE PROTECTION SYSTEM IS IMPROVING;
    CAPITAL IMPROVEMENTS AND PRIORITIZING RESTORATION OF
    EQUIPMENT STILL NEEDED……………………………………………………. 3

    WHILE TVA IS TAKING ACTIONS, MORE EMPHASIS ON PREVENTION
    AND PREPAREDNESS COULD REDUCE THE IMPACT OF FIRES ............ 7

    TVA’S FPSA DOES NOT ADEQUATELY REFLECT FIRE RISK ................. 12

RECOMMENDATIONS ................................................................................ 14


APPENDIX A
PRIORITY LEVEL OF IMPAIRMENTS, 2013

APPENDIX B
MEMORANDUM DATED SEPTEMBER 22, 2014, FROM JAMES R.
DALRYMPLE TO ROBERT E MARTIN




Evaluation 2014-15216

                                    TVA RESTRICTED INFORMATION
                   Evaluation 2014-15216 – Follow-Up Review of TVA’s
                           Coal Plant Fire Protection Systems
                                         EXECUTIVE SUMMARY

     Why the OIG Did This Evaluation

         This review was initiated as a follow-up to a previous inspectioni completed
         about 3 years ago. Although fires are not a daily occurrence at the
         Tennessee Valley Authority (TVA), they could cause severe property
         damage and business interruption. To mitigate this risk, various fire
         protection systems are installed at TVA fossil plants (e.g., pumps, hoses,
         portable fire extinguishers). Fire protection systems are a combination of
         mechanical and electrical components and, like power generation
         equipment, need regular attention. If these systems are needed, they are
         counted on to perform reliably and protect vital plant equipment from fire.
         The objective of our review was to determine if the fire protection systems
         are adequately maintained and mitigating actions are taken to minimize the
         impacts of fires at TVA fossil plants.

     What the OIG Found

         We found TVA’s maintenance of fire protection systems is improving;
         however, there is heightened risk of damaging fires at TVA sites due to
         (1) restoration times for certain priority systems exceeding TVA targets;
         (2) delays in addressing fire protection work orders; (3) instances of
         noncompliance with TVA’s inspection, testing, and maintenance
         procedure; and (4) difficulties of maintaining aging equipment. We noted
         improvements have also been made to minimize the impacts of fire, such
         as equipping fire trucks for each plant, replacing the fire brigade room at
         Kingston, and updating a portion of personal protective equipment for
         brigade members. However, many issues noted in the original inspection
         remain. For example, fire brigade members continue to have concerns
         about fire response preparedness, and lessons learned are not shared
         consistently across the fleet. We also found Fire Protection Self-
         Assessments present the condition of TVA’s fire protection systems in a
         more positive manner than other sources might suggest is warranted.

     What the OIG Recommends

         We recommend the Senior Vice President, Power Operations:

            Take steps to restore impaired fire protection systems to service as
             appropriate and determine if additional personnel or resources are
             needed to expedite repairs of fire protection systems in the future.


i
    Inspection 2010-13530, Review of TVA’s Fossil Fire Protection Systems, September 30, 2011.
                                                                                                 Page i

                                   TVA RESTRICTED INFORMATION
          Evaluation 2014-15216 – Follow-Up Review of TVA’s
                  Coal Plant Fire Protection Systems
                            EXECUTIVE SUMMARY

     Determine the equipment needs of fire brigade members and take
      steps to provide that equipment.
     Identify additional training needs for fire brigade members and take
      steps to provide that training.
     Determine whether increased staffing is warranted for fire brigades.
     Create and implement a formal process for capturing and sharing
      lessons learned from fire events across the fleet.
     Amend the Fire Protection Self-Assessments to include ratings of fire
      protection system equipment, provide a more objective means for
      determining whether preventive maintenance was performed, reflect
      prioritization of impairments and work orders outstanding, and provide
      a synopsis of additional drivers of fire risk at each site. In addition,
      methodology for assessing a site’s compliance rate should be shared
      with site and corporate managers to allow accurate interpretation of
      reports.


TVA Management’s Comments

  TVA management agreed with the findings and recommendations and
  provided clarifying comments, which we evaluated and incorporated into
  the final report as appropriate. See Appendix B for TVA’s complete
  response.

Auditor’s Response

  The Office of the Inspector General concurs with TVA management’s
  response and planned actions.




                                                                          Page ii

                       TVA RESTRICTED INFORMATION
Office of the Inspector General                                                              Evaluation Report


BACKGROUND
Fire hazards such as large quantities of fuel, combustible/flammable liquids,
electrical hazards, combustible dusts, and warehousing are common in electric
generating plants. Although fires are not a daily occurrence at the Tennessee
Valley Authority (TVA), they could cause severe property damage and business
interruption. To mitigate this risk, various fire protection systems are installed at
TVA fossil plants (e.g., pumps, hoses, portable fire extinguishers).

Fire protection systems are a combination of mechanical and electrical
components and, like power generation equipment, need regular attention. If
these systems are needed, they are counted on to perform reliably and protect
vital plant equipment from fire. However, every year fire protection systems
throughout the industry fail to operate satisfactorily in fire situations. In about
one-third of these cases, the cause is inadequate inspection, testing, and
maintenance.

At TVA's coal-fired plants, a number of plant personnel participate as fire brigade
members. These individuals take on the responsibilities of fire brigade members
in addition to their normal job duties. Each fire brigade member is required to
receive specialized training. According to TVA policy, fire brigade members are
part of an organized group of TVA employees who are qualified, knowledgeable,
trained in industrial firefighting, and skilled in at least basic structural firefighting
operations, who perform advanced exterior and interior structural firefighting
response duties, and who are trained in the use of protective clothing and
breathing apparatuses.

Fire prevention and fire protection codes and standards are established by the
National Fire Protection Association (NFPA).1 NFPA codes provide
recommendations, not requirements, for fire prevention and fire protection for
electric generating plants. TVA’s policies and standards for fire protection
equipment and fire brigades are based on NFPA guidelines. Other fire protection
codes and standards exist, but its contents are usually based on NFPA
documents.




1
    NFPA is an international nonprofit organization whose mission is to reduce the burden of fire and other
    hazards on the worldwide quality of life. NFPA has designed 300 codes and standards to minimize the
    risk and effects of fire. NFPA also provides public safety education, advocacy campaigns, professional
    development training, a premier source for fire data research, and multiple publications on fire and fire
    safety.
Evaluation 2014-15216                                                                                   Page 1

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                              Evaluation Report


OBJECTIVE, SCOPE, AND METHODOLOGY
This review was initiated as a follow-up to Inspection 2010-13530 – Review of
TVA’s Fossil Fire Protection Systems issued September 30, 2011. The objective
of our review was to determine if the fire protection systems are adequately
maintained and mitigating actions are taken to minimize the impacts of fires at
TVA fossil plants.

TVA will idle or retire 2,700 megawatts of older, less-economical coal-fired
capacity by the end of 2017. To limit the impact of plants due for closure on our
assessment, the scope of our review included coal plants that were planned to
operate beyond 2017. As of February 2014, seven coal plants met this criterion:
Allen, Bull Run, Cumberland, Gallatin, Kingston, Paradise, and Shawnee.2

To achieve our objective, we:

    Reviewed policies, procedures, and fire codes to identify changes since our
     original inspection.
    Reviewed insurance reports, Fire Protection Self-Assessments (FPSA), and
     Problem Evaluation Reports (PER) to identify reported issues with fire
     protection systems.
    Reviewed fire incidents for trends since our original inspection.
    Reviewed fire impairment reports for trends in number of impairments and
     length of time to restore out-of-service critical fire equipment since our original
     inspection.
    Interviewed key corporate and site personnel to identify information available
     to management for minimizing impacts of fires.

In addition, we reviewed fire protection systems at four of TVA's coal plants in
detail, focusing on documentation from calendar years 2012 and 2013. The four
plants we judgmentally selected were: (1) Bull Run, (2) Cumberland, (3) Gallatin,
and (4) Kingston. At these four plants, we interviewed fire protection coordinators
and system engineers assigned to fire protection as well as performed
walkdowns to identify outstanding issues with fire protection systems. We also
interviewed fire brigade members to determine whether they felt adequately
prepared to respond to fires.

This review was performed in accordance with the Council of the Inspectors
General for Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.



2
    We excluded Widows Creek Unit 7 as it is anticipated to idle shortly after fiscal year (FY) 2017, in
    FY2019. We included Paradise Unit 3 as it is anticipated to continue to operate.
Evaluation 2014-15216                                                                                      Page 2

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                             Evaluation Report


FINDINGS
During our review, we found TVA’s maintenance of fire protection systems is
improving, however, there is heightened risk of damaging fires at TVA sites due to
(1) restoration times for certain priority systems exceeding TVA targets; (2) delays
in addressing fire protection work orders; (3) instances of noncompliance with
TVA’s inspection, testing, and maintenance procedure; and (4) difficulties of
maintaining aging equipment. We noted improvements have also been made to
minimize the impacts of fire, such as equipping fire trucks for each plant, replacing
the fire brigade room at Kingston, and updating a portion of personal protective
equipment for brigade members. However, many issues noted in the original
inspection remain. Fire brigade members continue to have concerns about fire
response preparedness and lessons learned are not shared consistently across
the fleet. We also found FPSAs present the condition of TVA’s fire protection
systems in a more positive manner than other sources might suggest is warranted.

TVA’S MAINTENANCE OF FIRE PROTECTION SYSTEM IS
IMPROVING; CAPITAL IMPROVEMENTS AND PRIORITIZING
RESTORATION OF EQUIPMENT STILL NEEDED
We found TVA’s maintenance of fire protection systems is improving. System
impairments are reported more frequently and are impaired for fewer days than
in 2010. In addition, TVA is taking actions recommended by its insurer to reduce
risk. However, there is heightened risk of damaging fires at TVA sites due to
(1) restoration times exceeding TVA thresholds; (2) delays in addressing fire
protection work orders; (3) instances of noncompliance with TVA’s inspection,
testing, and maintenance procedure; and (4) difficulties of maintaining aging
equipment.

Fire Impairment Restoration Times Continue to Exceed TVA Targets for
Certain Priority Systems
We observed while TVA is reporting fire impairments more frequently and taking
actions to restore fire impairments3 more quickly, numerous impaired fire
protection systems exist at coal plants and certain priority impairments were not
returned to service in a timely manner. Impaired fire protection systems place
plant personnel and plant assets at a greater risk from fire.

Overall, fire impairments increased 42 percent from 2010 to 2013. According to
fire protection coordinators and engineers at the sites we visited, impairments are
being reported more frequently. Management began emphasizing the need for
better reporting during 2011, and the highest number of impairments were
recorded that year (325)–representing a 137 percent increase from 2010 levels.
In the years following 2011, TVA sites have decreased the total number of
impairments each year–264 reported in 2012 and 195 reported in 2013.


3
    A fire impairment is a term used for a fire protection system that is out of service.
Evaluation 2014-15216                                                                                 Page 3

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Evaluation Report


The number of fire impairments in calendar years 2010-2013 at the plants we
reviewed can be seen in Figure 1 below.

                          Figure 1: Fire Impairments, 2010 - 2013




As shown in Figure 2, TVA coal plants have also greatly improved the timeliness
of response to impairments. The average number of days fire protection systems
remained impaired decreased by 78 percent since 2010, reflecting greater
emphasis placed on correcting impairments in a timely manner.

                     Figure 2: Average Days Impaired, 2010 - 2013




In response to our initial inspection, TVA management revised Fossil Power
Group (FPG), Standard Programs and Processes (SPP)18.119, Fire Protection
System Impairments, to correspond with levels of priority defined in FPG-SPP-
07.020, Work Prioritization and Approval. The change resulted in removal of
targets for Priority I and III and significant extension of time allowed for restoring
Priority II systems. According to the Work Prioritization and Approval process:


Evaluation 2014-15216                                                              Page 4

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                            Evaluation Report


    Priority I impairments create an immediate hazard to employees and property
     or affect equipment critical to continued operations. Priority I impairments will
     be worked 24/7 until restored or the work order is downgraded to a lower
     priority. Previously, Priority I impairments were required to be restored to
     operation within 8 hours.
    Priority II impairments seriously jeopardize employee safety, environmental
     safety, or plant availability. For Priority II impairments, work is started within
     24 hours. Work is targeted to complete within 14 days. Previously, Priority II
     impairments were required to be restored to operation within 24 hours.
    Priority III impairments must be corrected to restore degraded components or
     programs that reduce safety or cause a risk to generation. Maintenance to
     restore Priority III impairments is scheduled as resources allow. Previously,
     Priority III impairments were required to be restored to operation within
     48 hours.

While restoration times have improved across the seven sites we reviewed,
timeliness of response to impairments at three sites continues to not meet targets
established in FPG-SPP-18.119, Fire Protection System Impairments, for Priority
II systems. As shown in the Appendix, closed impairments were impaired for an
average length ranging between 9 and 56 days. Priority I impairments were
generally closed within a 24-hour time frame. Priority II impairments were not on
average closed within the 14-day time frame at three of the seven sites we
reviewed. Priority III impairment restoration varied greatly by site, from an
average of 9 to 76 days.

Unacceptable Number of Work Orders Outstanding for 30 or More Days
According to the FPSAs,4 TVA aims to have no work orders outstanding for more
than 30 days for fire protection systems. Having greater than 10 outstanding
work orders for fire protection systems would receive a rating of unacceptable5 in
the FPSA. In our original inspection, we noted there was an unacceptable
number of work orders outstanding at the sites we reviewed–citing a high of more
than 125 work orders outstanding at Paradise in 2010. Based on our review of
2012 and 2013 FPSAs, fewer work orders are reported to be outstanding than in
2010. However, Allen, Bull Run, Paradise, and Shawnee were consistently rated
unacceptable for the entirety of 2012 and 2013. No site was consistently rated
acceptable (zero work orders outstanding for 30 or more days). It should also be
noted some sites did not consistently report the total number of outstanding work
orders in its comments, adding difficulty in determining the severity of the
backlog.


4
    FPSAs are monthly self-assessments designed to reflect the overall status of fire protection readiness at
    the facility. FPSA questions are answered by Acceptable, Watch List, Marginal, Unacceptable, or Not
    Applicable. Results are automatically calculated as a percentage of compliance, with Percent of
    Activities Evaluated in Compliance this Assessment calculated.
5
    Unacceptable is defined in the FPSAs as an item that does not comply with the requirements for fire
    preparedness, fire codes, and TVA requirements.
Evaluation 2014-15216                                                                                 Page 5

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                     Evaluation Report


Instances of Noncompliance With Fire Protection System Inspection,
Testing and Maintenance Policy
TVA policy FPG-SPP-18.121, Fire Protection System Inspection, Test, and
Maintenance, specifies the weekly, monthly, quarterly, semiannual, and annual
testing and maintenance of fire suppression systems, fire detection systems, and
other related equipment. Our original inspection noted the policy was not
complied with in some cases. Based on our review of insurance assessments
and FPSAs, there continue to be instances of noncompliance. For example,
Cumberland had not completed its annual fire pump performance testing at the
time of the insurance review. The insurer also noted Kingston did not fully
comply with FPG-SPP-18.121, Fire Protection System Inspection, Test, and
Maintenance Policy. In 2013, other areas of noncompliance noted in the FPSAs
included annual functional tests for special hazard fire protection systems,
triennial hydrostatic testing of fire hoses, and monthly inspections and annual
tests of emergency lighting systems.

Difficulty Maintaining Aging Equipment
TVA’s insurer rates the overall condition of fire protection systems at the sites we
visited as “fair”. As shown in Figure 3 below, component systems were rated
“good” to “fair” at the sites we visited. Risk reduction suggestions to improve
ratings included:

    Installing smoke detection systems for certain areas of the plants.
    Installing automatic sprinkler systems for certain areas of the plants.
    Securing backup water supply at Kingston and Gallatin.
    Installing additional fire protection for major equipment.

             Figure 3: Fire Protection System Condition Ratings, 2013

    Component System                    Bull Run Cumberland                Gallatin Kingston
    Water Supply & Distribution System      G         G                        F        F
    Fire Protection Systems & Equipment     F         F                        F        F
    Fire Signaling System                   G         G                        G        G
    Fire Detection Systems                  F         F                        F        F

             Excellent     The facility has taken measures according to industry standards and best practices. Loss
                           potential is considered significantly reduced.
             Good          The facility has taken measures that are consistent with industry standards and best
                           practices. Loss potential is considered to be average.
             Fair          The facility has taken some measures that approach industry standards and best practices;
                           however, deficiencies exist. Loss potential is considered somewhat increased.
             Poor          The facility has major deficiencies and does not approach industry standards and best
                           practices. Loss potential is considered to be significantly increased.


Evaluation 2014-15216                                                                                             Page 6

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                              Evaluation Report


While TVA sites are taking actions to reduce risk as recommended by the
insurers, the actions taken have typically involved dedicating operations and
maintenance resources to address the risk. The vast majority of risk reduction
strategies remaining are capital improvements to fire protection systems. During
our site interviews, engineers assigned to fire protection named several
components of the fire protection system that were aging or broken. In addition,
one engineer indicated replacement parts were difficult to find. The Fossil Fire
Protection Program Manager is currently working to obtain quotes for the
recommended repairs and upgrades and to prioritize the projects based on risk.

WHILE TVA IS TAKING ACTIONS, MORE EMPHASIS ON
PREVENTION AND PREPAREDNESS COULD REDUCE THE
IMPACT OF FIRES
In our previous review, we identified opportunities to minimize impacts of fire,
including: (1) adequately preparing the fire brigade to respond to fires,
(2) reviewing the cause of past incidents at TVA for lessons learned,
(3) improving fire prevention, and (4) ensuring all fire incidents are reported.
While improvements have been made in these areas, many issues noted in the
original inspection remain.

According to the TVA Corporate Fire Protection Policy,6 TVA operates under the
principles that (1) all fire incidents are preventable, and (2) zero fire incidents is
an achievable goal. In 2010, a common cause analysis was performed due to an
adverse trend in fire incidents occurring at TVA coal plants. Since that time, fire
incidents do not appear to be trending lower, despite improvements made.
Figure 4 on the following page shows the fire events from the past 4 years at coal
plants planned to operate past FY2017. In 2013, the fire events ranged from
none at Gallatin to eight at Kingston. Given the number of fire incidents
continuing at TVA coal plants, sustained effort at minimizing fire impacts is
critical.




6
    TVA-POL-18.7, TVA Corporate Fire Protection Policy was adopted April 1, 2013. According to Safety
    Support personnel, while the Corporate Fire Protection Program no longer exists, the policy is still being
    followed.
Evaluation 2014-15216                                                                                   Page 7

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                             Evaluation Report


                             Figure 4: Fire Incidents, 2010 - 2013




Fire Brigade Members Continue to Have Concerns About Fire Response
Preparedness
Since 2010, TVA has equipped fire trucks for each site, replaced the fire brigade
room at Kingston, and updated a portion of personal protective equipment for
brigade members. During our interviews with fire brigade members, several
areas of concern in 2010 were repeated regarding the fire brigade’s
preparedness to respond in the event of a fire. These included personal
protective equipment, equipment staging, training, and staffing. Proper training
and equipment are imperative to fire brigade personnel being able to safely and
effectively combat fires. As a result of the identified deficiencies, TVA’s fire
brigade may not be adequately prepared to fight fires and personnel safety, and
plant assets may be at greater risk.

    Personal Protective Equipment – Some fire brigade members were
     concerned personal protective equipment was aged and inappropriately sized
     for site staff. In response to our original inspection, the Emergency Response
     Training (ERT) staff was to inspect equipment rooms annually. While we
     were provided with current inspections for three of four sites,7 we noted ERT’s
     inspections do not provide an inventory of aged or inappropriately sized
     equipment. According to the Senior Compliance Program Manager, coal
     plants have an average of 17 expired sets of equipment. In FY2014,
     $150,000 was allotted for replacing expired equipment, of an estimated
     $375,000 needed.
    Equipment Staging – According to the Fire Brigade Organization policy, at the
     beginning of each shift, fire brigade members should assemble and stage
     their properly sized, full firefighting equipment in the fire equipment room or in
     a designated area. At the end of each shift, all equipment is returned to its


7
    Kingston was not inspected due to inaccessibility of equipment during the transition to a new fire brigade
    room.
Evaluation 2014-15216                                                                                  Page 8

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Evaluation Report


    proper location. During our site visits, we observed this occurring at Kingston
    (see Figure 5 below) where a new fire brigade room was recently constructed.

                             Figure 5: Equipment Staging at Kingston




    At the remaining three sites, it did not appear sufficient space was available
    for each fire brigade member to properly stage their personal protective
    equipment (see Figure 6 below). One fire brigade member believed it may
    not be a requirement to do so at his site.

                 Figure 6: Equipment Staging at Bull Run and Cumberland




    According to Gallatin’s Plant Manager, construction of a new, larger, fire
    brigade room is budgeted for the current FY.

   Training – As in our original review, brigade members we interviewed
    indicated training could be expanded, improved, and/or occur more frequently
    to better prepare them to respond in a fire event.
    - In response to our original inspection, ERT implemented an annual
        refresher course in 2012. In addition, fire brigade members participate in

Evaluation 2014-15216                                                            Page 9

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Evaluation Report


      an increased number of fire drills since our original review. While they
      previously participated once every 6 months, drills are currently conducted
      quarterly.
    - Fire brigade members mentioned concern about off-site fire departments’
      familiarity of the site if they were called upon to assist in a fire incident.
      Off-site fire departments typically called in for mutual aid during fire events
      are offered an annual walkdown of the facility annually. Most fire brigade
      members felt periodic inclusion of off-site fire department personnel in
      drills could improve fire response for larger events. In addition, site
      security could also be considered for participation in drills.
    - Fire brigade members at Gallatin expressed a desire to have confined
      space training as they are currently not trained in confined space rescue;
      maintenance personnel are trained instead. One fire brigade member
      indicated he was concerned that maintenance staff is not at the site
      24/7 should the need arise for a confined space rescue.

   Staffing – In our original review, several fire brigade members told us they did
    not believe they have adequate staffing to fill fire brigade positions. TVA
    management indicated staffing comments were predominately related to John
    Sevier Fossil Plant, which was slated for retirement by the end of calendar
    year 2012. Since the original inspection, John Sevier Fossil Plant has closed,
    altering its fire brigade staffing plan.


    FPG-SPP-10.013, Fire Brigade Organization, requires a minimum of one fire
    brigade leader and four fire brigade members working on each shift. When
    minimum eligible staffing is not met, a PER should be filed in the Corrective
    Action Program. We noted the following issues related to minimum staffing at
    sites we visited:
    - Bull Run – In response to our original inspection, a gap analysis was
        conducted in 2012 for coal plant fire brigade staffing. At that time, Bull
        Run identified deficiencies in staffing and put an action plan in place to
        address the deficiency. During our review, we found staffing deficiencies
        persist at Bull Run. We reviewed PERs for 2013 and observed Bull Run
        had three PERs relating to insufficient fire brigade staffing. In two of these
        instances, additional fire brigade members were called in to satisfy the
        staffing requirement. According to the Operations Manager, overtime is
        typically paid for individuals who are called in to staff the brigade. We
        were told there were more instances where staffing levels did not meet fire
        brigade requirements but were not documented in PERs.
    - Gallatin – While we were told minimum staffing levels were scheduled at
        Gallatin, fire brigade members indicated the fire brigade was not always
        fully staffed. However, we did not see evidence of the issue documented
        in PERs.
    - Cumberland – A fire brigade member expressed concern while minimum
        staffing levels in the policy were adequate for sites with fewer units and

Evaluation 2014-15216                                                            Page 10

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                           Evaluation Report


       were routinely met at their site, Cumberland’s nine coal units should
       warrant a higher brigade staffing minimum.
     - In addition, some fire brigade members mentioned Unit Operators are
       typically included in the fire brigade staffing, but due to the nature of their
       primary duty, they would not be available to respond to fire. Concern was
       raised that by including the Unit Operators in minimum staffing, fire
       response was reduced in some instances by half, such that sites would
       have two available responders for any incidents that may arise.

    Pre-Fire Plans - Pre-fire plans identify the important hazards and safety
     equipment in each area of the plant, along with cautions and procedures for
     certain firefighting functions. The pre-fire plans are used as reference
     documents for emergency responders during a fire scenario and as training
     documents to familiarize all personnel with plant configuration and hazards.
     According to its 2013 insurance report, Gallatin pre-fire plans did not include
     the coal handling yard. Site personnel indicated large construction areas
     such as the scrubbers should also be reflected in the pre-fire plans.

Lessons Learned From Fire Events Are Not Being Consistently
Communicated Across the Fleet
In our previous review, we found lessons learned from fire events were not being
communicated on a consistent basis. Communicating consistently across the
fleet may help to prevent the recurrence of similar events at the various sites. If
information is not communicated, prevention opportunities are missed, and the
risk to plant personnel and assets may be greater.

In response to our original inspection, TVA management agreed to include the
Operations peer team and the Operations Experience Manager8 on automatic
notifications when fire incidents are recorded in the Operators Information Center
(OIC) database. According to the Operations Experience Manager, he is
responsible for sharing Operating Experiences (O/E) across TVA organizations
and sites. Once notified of an event, he decides on whether the event is worthy
of sharing as an O/E and who should see the information.

However, the Operations Experience Manager is not currently receiving
notifications from the OIC related to fire incidents. Individuals included on the
notification list are hardcoded into the OIC program; when a new person takes on
the responsibility, the program would need to be updated to include the
individual. It appears this was not performed in this case. The O/E Manager was
unaware of the OIC system. He recalled a single fire protection related O/E in
2013. A crusher building fire at Gallatin was shared and other coal plants
initiated PERs to demonstrate how the fire would be handled at their site.



8
    The Operations Experience Manager is one responsibility of a specialist in the Enterprise and Business
    Applications Management group.
Evaluation 2014-15216                                                                              Page 11

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                        Evaluation Report


During our interviews, plant personnel indicated lessons learned were shared in
different ways across the plants and are not always shared with fire brigade
members. While a couple of fire brigade members indicated they did not directly
receive written lessons learned, many members indicated they have seen fire
incident reports from other sites. Fire incident reports provide a description of the
incident, but do not typically identify lessons learned. Other fire brigade
members stated information on lessons learned is passed down from the Shift
Operations Supervisor during pre-shift meetings. One individual who led a
response to a serious fire event said he was never interviewed about the
response.

Fire Incident Reporting
FPG -SPP-18.120, Fire Incident Reporting, states all fire-related incidents shall
be reported using the electronic fire incident report form within 8 hours of the
occurrence. Based on our review of PERs, we found fire incidents were reported
in the OIC.

Fire Prevention
In response to our original inspection, TVA management reinforced the
nonsmoking policy. During our walkdowns, we did not detect violations of this
policy. We did not review coal dust accumulation as a part of this evaluation due
to its coverage in a recently released audit.9

TVA’S FPSA DOES NOT ADEQUATELY REFLECT FIRE RISK
We found FPSAs to present the condition of TVA’s fire protection systems in a
more positive manner than other sources might suggest is warranted. While the
purpose of the tool includes directing management attention to the status of the
fire protection program, individuals responsible for filling out the report do not
believe it to be an accurate summary of fire risk. In addition, a senior manager
raised concerns about the accuracy of the report. However, plant managers we
interviewed indicated they had all the information they needed to assess fire risks
at their sites.

TVA’s FPSAs “evaluate FPG Facility Fire Protection Program, procedures and
requirements to provide employees with a safe working environment, reduce and
control fires or explosions, and to reduce the possibility of a fire event and to
mitigate the impact of a fire.” The assessments are to be performed at all FPG
plants and facilities “to direct management’s attention to the status of their Fire
Protection Program, focus on key program requirements, provide a comparison
with other facilities, provide periodic progress tracking, and provide the ability to
assign and track specific activities.” The assessments are shared with


9
    Audit 2012-14631 – Review of TVA’s Management of Combustible Coal Dust, November 2013, found
    that despite some improvements in combustible dust management, actions have been inadequate to
    improve deteriorating equipment conditions, address housekeeping challenges, and provide appropriate
    combustible dust conditions at TVA’s coal plants.
Evaluation 2014-15216                                                                            Page 12

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Evaluation Report


operations managers, plant managers, regional Coal and Gas vice presidents,
and the Senior Vice President of Power Operations, among others.

Individuals responsible for filling out the report do not believe it to be an accurate
summary of fire risk at their facilities. One individual observed that within the last
7 years, the site’s assessments did not vary more than 4 percentage points,
although their actual fire protection has varied wildly during that span of time.
Another individual stated it is easy to overlook things to make your score go up,
and the self-assessment is more a reflection of how the individual feels about the
fire protection system that month. In addition, when asked how the site uses the
information, one individual stated the site does not use it and it does not add
value for them. However, several cited its value as an advocacy tool to garner
resources for areas needing improvement.

In addition, a senior manager expressed concern the reports do not reflect fire
risks or present the state of the fire protection program at sites accurately. The
manager cited an example of Colbert Fossil Plant where funds were recently
released to a contractor to catch up on inspections, testing, and maintenance.
While the manager indicated the site was behind on testing for some time prior to
December 2013, as of December 2013, the site showed 91percent compliance
on the FPSA.

However, plant managers indicated they had all the information they needed to
assess fire risks at their sites. In addition to FPSAs, plant managers receive
monthly combustible dust reports and daily reports showing current fire
impairments. When asked what the FPSA report indicates, one plant manager
explained it is a relative measure of risk with respect to being able to respond to
fires that indicates how systems are performing and whether preventive
maintenance is being performed.

Our review of FPSAs indicated they reflect a more positive view of fire protection
systems than insurance reports appeared to warrant. Insurance reports evaluate
overall conditions of fire protection systems, which is noted below as a lacking
element in the FPSA reports. While insurers rated the fire protection systems at
our sites as fair, self-assessments graded our sites worst at 78 percent in
compliance and best at 93 percent. These reports are not directly comparable as
currently designed. However, it is important to note the difference that can result
when the overall condition of fire protection systems are considered in the
assessment tool.

We identified the following limitations of the FPSA tool to assess fire risks as it is
currently designed:

   Overall condition of fire protection systems not considered.
   Use of subjective self-reporting on testing, inspection, and maintenance
    activities.

Evaluation 2014-15216                                                            Page 13

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Evaluation Report


   Impairments outstanding are reported in aggregate rather than by priority.
   Work orders outstanding are reported in aggregate rather than by priority.
   Tool uses an unclear methodology for weighting compliance rates.
   Tool excludes other relevant drivers of risk (e.g., housekeeping of
    combustible dust).

RECOMMENDATIONS
We recommend the Senior Vice President, Power Operations:

   Take steps to restore impaired fire protection systems to service as
    appropriate and determine if additional personnel or resources are needed to
    expedite repairs of fire protection systems in the future.
   Determine equipment needs of fire brigade members and take steps to
    provide that equipment.
   Identify additional training needs for fire brigade members and take steps to
    provide that training.
   Determine whether increased staffing is warranted for fire brigades.
   Create and implement a formal process for capturing and sharing lessons
    learned from fire events across the fleet.
   Amend the FPSAs to include ratings of fire protection system equipment,
    provide a more objective means for determining whether preventive
    maintenance was performed, reflect prioritization of impairments and work
    orders outstanding, and provide a synopsis of additional drivers of fire risk at
    each site. In addition, methodology for assessing a site’s compliance rate
    should be shared with site and corporate managers to allow accurate
    interpretation of reports.

TVA Management’s Comments – TVA management agreed with the findings
and recommendations and provided clarifying comments, which we evaluated
and incorporated into the final report as appropriate.

In response to our recommendations, management plans to complete the
following actions:

   Prioritize current impairments and establish a due date for all long-term fire
    impairments or make a formal decision to not pursue repair.
   Train sites on the proper use of work management priorities for fire
    impairments.
   Track high priority fire impairments to completion using a monthly scorecard.


Evaluation 2014-15216                                                           Page 14

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                      Evaluation Report


   Revise FPG-SPP-18.119, Fire Protection System Impairments, to allow for a
    formal nonconformance process.
   Inventory fire brigade equipment at all coal plants to determine baseline
    equipment status.
   Revise FPG-SPP-10-013, Fire Brigade Organization, to (1) include standard
    equipment list and develop an action plan with dates to replace or purchase
    needed equipment to fill those gaps and (2) require when minimum staffing is
    not met that a PER will be generated and reviewed by site management to
    identify corrective actions.
   Institute new training requirements based on participant feedback.
   Revise Attachment 1 to FPG-SPP-18.120, Fire Incident Reporting, to include
    requirement to write a lessons learned for all fires.
   Revise OIC for fire incidents to make lessons learned check box a mandatory
    field before the incident can be archived.
   Utilize the Enterprise Lessons Learned Information System to enter lessons
    learned and operating experiences which will allow for automatic
    communications to those who need it.
   Generation Engineering will revise FPG-SPP-18.123, Fire Protection
    Assessment, to include a new rating calculation and process for sharing
    assessment data.

See Appendix B for TVA’s complete response.

Auditor’s Response – The Office of the Inspector General concurs with TVA
management’s response and planned actions.




Evaluation 2014-15216                                                           Page 15

                                  TVA RESTRICTED INFORMATION
                                                                                                                  APPENDIX A
                                                                                                                   Page 1 of 1

                                   Priority Level of Impairments, 2013*,+

Coal Plant                                   Allen     Bull Run Cumberland          Gallatin     Kingston       Paradise     Shawnee
Number of Impairments                            9           23         55                17           29             16           46
Average Number of Days Impaired                 32           24         16                25            9             56            9

Priority I: Emergency Conditions
Number of Impairments                             2            0               1             0            1              0                 0
Average Days Impaired                             2           --               1            --            0             --                --
Range                                          1- 2           --              --            --           --             --                --

Priority II: Urgent Conditions
Number of Impairments                             2            1              10            4             0             6                 9
Average Days Impaired                            12            0              22           35            --            82                 3
Range                                        1 - 22           --         0 - 150      11 - 52            --      21 - 216              0- 7

Priority III: Operational Conditions
Number of Impairments                             3           13              36           11             7              8                21
Average Days Impaired                            76            9              16           24            13             47                10
Range                                      24 - 143       0 - 44         0 - 367       1 - 90        1 - 47         0 - 97            0 - 42

Not Categorized                                   0            0               1            0             3             0                 0

* The average days and day range were calculated only for closed impairments.
+ Number of impairments in each priority level do not sum to the total number of impairments because we did not report on all
priority levels. In addition, of the 195 total impairments in 2013, 4 were not given a prioritization level as required by FPG-SPP-
18.119, Fire Protection System Impairments.




                                             TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 1 of 5




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 2 of 5




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 3 of 5




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 4 of 5




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 5 of 5




TVA RESTRICTED INFORMATION
